<html>
<title> - THE U.S. CAPITOL VISITOR CENTER - TEN YEARS OF SERVING CONGRESS AND THE AMERICAN PEOPLE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 THE U.S. CAPITOL VISITOR CENTER--TEN YEARS OF SERVING CONGRESS AND THE 
                            AMERICAN PEOPLE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on the Internet:
                         http://www.govinfo.gov
                         
                         
                               _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-666                    WASHINGTON : 2018                               
                         
                         
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia





THE U.S. CAPITOL VISITOR CENTER--TEN YEARS OF SERVING CONGRESS AND THE 
                            AMERICAN PEOPLE

                              ----------                              



                        WEDNESDAY, MAY 16, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Brady, and 
Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Dan Jarrell, Legislative 
Clerk; Matt Field, Director of Oversight; Ed Puccerella, 
Professional Staff; Erin McCracken, Communications Director; 
Khalil Abboud, Minority Deputy Staff Director; Kristie Muchnok, 
Minority Professional Staff.
    The Chairman. I now call to order the Committee on House 
Administration for purpose of today's hearing, examining the 
United States Capitol Visitor Center as it approaches its tenth 
anniversary.
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included. A 
quorum is present, so we may proceed.
    First, I would like to thank our witness for taking time 
out of her schedule to be with us today.
    On October the 20th, 2008, President Barack Obama signed 
legislation sponsored by my friend and colleague, then-House 
Administration Committee Chairman Robert Brady, designating the 
newly completed construction project at the United States 
Capitol as the United States Capitol Visitor Center.
    On December 2, 2008, coinciding with the 145th anniversary 
of the Statue of Freedom's placement on top of the Capitol 
dome, the CVC officially opened its doors to the public. Over 
the last 9 years, the CVC has welcomed more than 20 million 
visitors to our Nation's Capital.
    In addition, the CVC has supported well over 7,000 
congressional events in CVC meeting spaces, assisted more than 
31,000 of our interns and staff on delivering engaging Capitol 
tours, and assisted guests at Congressional Gold Medal 
ceremonies, commemoration ceremonies, annual Memorial Day and 
Capitol Fourth of July concerts, as well as three Presidential 
inaugurations.
    Today we welcome the leader of these efforts, Ms. Beth 
Plemmons, Chief Executive Officer for Visitor Services at the 
CVC.
    Under Ms. Plemmons' management, the vast majority of 
constituents visiting the CVC rate their experience as a 
positive one. According to CVC survey data, 93 percent of 
visitors to the Capitol said their expectations were met or 
were exceeded and they were likely to recommend the Capitol 
tour to their friends.
    Last year, the CVC witnessed the highest annual number of 
visitors to its facility at more than 2.4 million Americans and 
international visitors who came to see our great symbol of 
democracy in action. In 2017, the CVC also had a record number 
of sales in their restaurant and gift shops, which proudly sell 
only made in America merchandise.
    Today, we have the opportunity to hear from our witness 
about the lessons the CVC management has learned during the 
facility's first decade of operations, the greatest operational 
challenges it faces, and what the plan is to continue to meet 
the needs of Congress and the American people in the years to 
come.
    Ms. Plemmons, thank you for your testifying before us 
today. We appreciate you being here.
    And I would now like to recognize my colleague and the 
Ranking Member of this Committee, Mr. Brady, for the purpose of 
providing an opening statement.
    Mr. Brady.
    [The statement of The Chairman follows:]
    Mr. Brady. Thank you. And I want to thank Chairman Harper 
for arranging today's hearing.
    And thank you, Ms. Plemmons, for testifying today on behalf 
of the Capitol Visitor Center.
    Ten years ago, the CVC opened its doors as a brand new 
facility for visitors from across the world to experience the 
United States Capitol and its actively working government. 
Under the leadership of Ms. Plemmons, remarkable progress in 
organizational structure, education, and visitor experience 
have been made.
    The evolution of the CVC has been a rewarding project, 
although inherited, for me to be a part of. Seeing a gigantic 
hole in the ground turn into a world-class facility I see today 
is truly amazing.
    Ms. Plemmons, it is my pleasure to have you here today, and 
I look forward to hearing any information you will be sharing 
with this Committee. Thank you.
    Thank you, Mr. Chairman.
    [The statement of Mr. Brady follows:]
    The Chairman. Thank you, Mr. Brady.
    Does any other Member wish to be recognized for the 
purposes of an opening statement? Seeing none, I would now like 
to introduce our witness for today.
    Ms. Beth Plemmons joined the Capitol Visitor Center in 
September of 2008 as Director of Visitor Services, where she 
worked to develop and implement the visitor-related procedures 
and operations, which included the delivery of 40,000 Capitol 
tours each week. That is a lot more than 40,000 people. Those 
are individual tours with many, many people. Unbelievable 
numbers.
    Ms. Plemmons then served as Acting Deputy Chief Executive 
Officer for Visitor Services from 2010 to 2011, after which she 
was named the Chief Executive Officer, and has been serving in 
this role overseeing all aspects of the Capitol Visitor 
Center's operations.
    Ms. Plemmons has more than 25 years in the hospitality 
industry. And prior to joining the Architect of the Capitol, 
she served as Associate Director for Guest Services at George 
Washington's historic Mount Vernon Estates and Gardens, as well 
as working for the 8,000-acre Biltmore Estate in Asheville, 
North Carolina, for 17 years.
    The Committee welcomes you, Ms. Plemmons.
    And the Chair now recognizes our witness for the purposes 
of an opening statement.
    And you are recognized for 5 minutes. Welcome.

   STATEMENT OF MS. BETH PLEMMONS, CHIEF EXECUTIVE OFFICER, 
                     CAPITOL VISITOR CENTER

    Ms. Plemmons. Thank you. Good morning, Mr. Chairman and Mr. 
Brady. Thank you so much for this opportunity to share an 
update on the Capitol Visitor Center operations. Let me also 
thank you, Mr. Chairman, for your strong support of the Capitol 
Visitor Center. Our staff greatly appreciated the kind comments 
you made on the House floor on March 5 about our team and our 
accomplishments as we approach our 10-year anniversary.
    And thank you, Congressman Brady. The CVC is very proud to 
carry only products made in America, and we are grateful for 
your leadership in helping us achieve this distinction.
    On behalf of the Architect of the Capitol, I have had the 
privilege of serving as the CEO for the Visitor Center since 
2011 and to lead a team that is passionately dedicated to 
serving Congress and every visitor to the United States 
Capitol.
    We have a tremendous civic responsibility to connect people 
to our great democracy. Each of our employees strives every day 
to meet our mission, which is working together for Congress to 
inform, involve, and inspire every visitor to the United States 
Capitol.
    We remember the words of Thomas Jefferson: An educated 
citizenry is a vital requisite for our survival as a free 
people. We regularly receive affirmation from our visitors that 
we are meeting our vision, which is preserving democracy one 
visitor at a time.
    I would like to share an excerpt from a recent comment from 
a teacher at Ludlow-Taylor Elementary, which is a local school: 
``In an era of video games and smartphones, children can often 
be easily distracted. Not the case with your tour. The reviews 
I heard from the children were incredible. They were engaged, 
excited, and could not stop talking about what they had 
learned. Most importantly, the children now feel connected to 
the legislative process in a way that they were not before.''
    Since we opened our doors in December of 2008, we have 
welcomed almost 21 million visitors--we hope to reach 21 
million by the end of this month--and provided more than 
300,000 tours of the Capitol, supported more than 7,000 
congressional events in our meeting spaces, welcomed guests at 
Presidential inaugurations, Congressional Gold Medal 
ceremonies, concerts, and memorial ceremonies.
    We have delivered our Capitol Tour Training program to more 
than 37,000 staff and provided them with tools that they need 
to give informative and inspiring tours for our constituents 
and developed a full suite of informational materials, 
including publications in multiple languages and audio 
translations to assist our large number of international 
visitors.
    We have welcomed more than 8 million visitors into our 
Exhibition Hall and developed a wide variety of educational 
tools to fulfill our mandate to inform the public about the 
Capitol and Congress.
    Our gift shops have improved the quality and variety of our 
offerings and heightened our level of customer service. In 
addition to offering only U.S.-made products, gift items 
represent the work of a growing list of small businesses from 
across the country.
    Beyond these operational successes, the Capitol Visitor 
Center facility has greatly enhanced the visitor experience. To 
appreciate the improved security, convenience, and comfort 
visitors enjoy today, it is helpful to go back in time to the 
years before there was a Capitol Visitor Center.
    Although always intended to be open to the public, the 
Capitol was never designed to accommodate nearly 2.5 million 
visitors each year. Before the Visitor Center opened, 
constituents may have waited up to 3 hours outside before 
entering the Capitol. There were only five public restrooms and 
no food service for visitors. Visitors often roamed freely 
through the building on self-guided tours and, not 
surprisingly, they soon became lost, confused or frustrated. 
Many wandered into restricted areas.
    Meanwhile, guides and staff leading tours had great 
difficulty overcoming the noise of the crowds. Even Members of 
Congress often struggled to reach the Chambers or other 
destinations in the building.
    Visitors to the Capitol today have a far different 
experience. The average wait time to enter the CVC is usually 
about 7 minutes. Once inside, visitors can use any of the 26 
fully accessible restrooms. The Capitol Cafe provides a place 
to enjoy a bite to eat, and two gift shops offer a selection of 
more than 2,000 items.
    The 16,500-square-foot Exhibition Hall presents educational 
materials telling the story of Congress and the Capitol. We are 
excited about our plans to redesign our exhibit space, which is 
scheduled to be complete in 2021.
    The CVC team has also continued to evolve, refining all 
areas of operations. While I am very proud of the milestones I 
have noted, I am most proud that we have never stopped 
exploring opportunities to work smarter, more efficiently, and 
more responsively to the needs of the congressional community.
    Before closing, I want to take this opportunity to thank 
all of our congressional partners for their continued support, 
including the House and Senate Sergeant at Arms, the Clerk of 
the House, the Secretary of the Senate, the House and Senate 
curators and historians, the Office of Congressional 
Accessibility Services, and the Capitol Police.
    The counsel and support we have received from your staff 
and the staff of the Senate Rules Committee has been and 
continues to be invaluable to our operation and critical to our 
success.
    Again, thank you and the entire Committee for your time and 
for this opportunity to share information about the Capitol 
Visitor Center. I look forward to answering any questions you 
may have about our operation.
    [The statement of Ms. Plemmons follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      
    The Chairman. Thank you very much, Ms. Plemmons.
    It is now an opportunity for each Member to ask you some 
questions about your work and how the experience is for the CVC 
and those that have the opportunity to come do those tours. I 
know this is your first time testifying before Congress, and we 
are honored to have you here with us today.
    You stated in your opening remarks how it has changed, from 
the facilities, from the availability of restrooms, for the 
wait time. Certainly, it has been a pretty remarkable change, I 
believe, for our visitors that come in.
    And I want to talk to you for a minute about that visitor 
experience. And I know you hope and attempt to mitigate any 
unnecessary wait times or inconveniences for our visiting 
public. And it is certainly their Capitol, the Capitol of the 
American people, and we are here to serve them.
    To that end, what steps does the CVC take to minimize undue 
delays and wait times for Members and their offices, so that 
individuals and groups do not experience lengthy wait times as 
they attempt to see their Capitol? And what means has the CVC 
employed in recent years to attempt to do that?
    Ms. Plemmons. Thank you for that question. This certainly 
has been a focus for us since we opened.
    We continually monitor and evaluate the operation and make 
adjustments accordingly so that we can make the experience for 
all of our visitors exceptional. And we certainly work closely 
with our congressional partners to make that happen.
    When the Visitor Center opened, we also started offering a 
reservation system online, which had not been available before 
to the public. And by doing that, that allowed folks to plan 
their experience in advance and make a reservation. And as part 
of our reservation system we are able to have different 
channels to manage our inventory.
    And to answer your question about some of the ways that we 
accommodate our congressional offices with wait times, we do 
allow congressional offices to book reservations before anyone 
else has that opportunity. So that inventory is managed to give 
preference to our congressional offices.
    We also realized pretty quickly that we needed a walkup 
line, because there were days where all the reservations had 
been taken and so everything was booked up. We needed to 
accommodate folks that were coming in and that had not made 
reservations. And as it works out, there are some folks that 
don't show up for their reservation, and so we are able to 
accommodate the folks that are waiting with that.
    We do have two separate walkup lines. We have one for 
staff, because we wanted to appreciate their need to get their 
constituents who had shown up at their office that day onto a 
tour. And for many years, the staff would wait until we had 
tickets available, and we would call out their name and they 
would come and get the tickets to go on the tour.
    Last year, we implemented a virtual queuing system, where 
the staff can get their telephone number and we will text them. 
And that way, instead of waiting, they can spend that time with 
their visitors, with their constituents, and take them around 
to Exhibition Hall or Emancipation Hall or get a cup of coffee, 
that sort of thing.
    The Chairman. That is great.
    Ms. Plemmons. The inventory management is something that we 
have perfected over the years, and our goal is every day to get 
as many folks that want to come to the Capitol and have a tour 
in to do just that. And we manage our inventory carefully to 
make sure nothing goes to waste.
    And so for 6 months out of the year when we are 
particularly busy, we are going above and beyond to make sure 
that we accommodate as many people as possible with an 
experience. And even if we don't have time to give a tour 
anymore, we do have some offerings in the afternoon where they 
can at least experience some of the Capitol.
    The Chairman. And as far as the time for the film, what is 
the last time in the day that anyone can start a tour? What is 
that time?
    Ms. Plemmons. Well, for a guide-led tour, it is at 3:20, 
but we have a 3:30 and a 3:40 time slot that is held 
exclusively for staff-led tours.
    The Chairman. Got it. And as far as the improvements on 
communicating with staff, where they are not having to wait 
with constituents, how are you communicating with the 
congressional community what those best practices are? How do 
you get that word out to all the offices?
    Ms. Plemmons. We have a couple of ways of doing that. One 
of our programs that we offer is CTT, which is Capitol Tour 
Training, and that is offered all year, every week. We have a 
3\1/2\-hour training class, where our staff, any of the staff 
can come and learn the tour route, safety and security 
protocol, and also get information about everything that they 
are seeing.
    So we have a book that we have put together that they can 
take with them and accurately tell the story of the Capitol and 
the history.
    The Chairman. And I am just curious. When they do this 
training, obviously, you can't highlight everything. You are 
just trying to give them a working knowledge so that they are 
informed. Do you go back and review what they are going to be 
taught and change that periodically or update it?
    Ms. Plemmons. Yes. We have over the years refined the 
training process with the goal of when they are done they can 
feel a confidence in going out with their constituents, the 
visitors, and taking them on a quality tour and having that 
visitor informed, involved, and inspired, which is our mission 
statement. We want to convey that to everyone and we want to 
give the tools to those staffers so that they can do the same.
    We have two congressional liaisons that stay in touch with 
our offices all the time, sending them information about 
upcoming events or anything unusual happening.
    We also have information sessions that we hold every year. 
We always have one right before the spring, because that is 
when it gets really busy and things are a little more difficult 
to navigate. And so we want to give everyone some helpful 
hints.
    At those meetings, we have representatives from the House 
and Senate Sergeant at Arms and also the Capitol Police, who 
are our partners in sort of making it happen every day and 
maneuvering folks through the building while it is still being 
a working office building. So that balance can be challenging, 
and so we all need to work together to make that happen.
    The Chairman. Thank you. And my time has expired.
    I will now recognize the Ranking Member, Mr. Brady, for 5 
minutes for more questions.
    Mr. Brady. Thank you, Mr. Chairman.
    Ms. Plemmons, you already answered my question about made 
in America, and I appreciate that. How is that going? How is it 
being executed? And the gift shop finances, have they been 
stabilizing over the years? I know at one point in time, I 
guess because of me, it wasn't stabilized too well. I made you 
clean the place out.
    Ms. Plemmons. We do credit you with getting us on the right 
track for made in America. We are very proud to have all made 
in America items in our gift shops.
    It was challenging to start out to find enough products 
that were made in America that were at a price that we could 
pass along to our visitors at an affordable price. But through 
the diligence of our staff, we have been able to find a lot of 
made in America products.
    The stores right now, if you walk into them, are just 
beautiful, and they are stocked full of interesting things. And 
there is something for everyone, from our students with pencils 
and postcards, to tee shirts. We have books. And we have 
higher-end gift items as well.
    So all of them are related to the Capitol and Congress in 
some way. We do have an educational focus in our gift shops as 
well as the rest of the CVC.
    And so made in America and that educational focus and 
Congress and the Capitol has been our guiding force as we have 
gone out and developed products and also found items that are 
being made across the country. We have about 125 small 
businesses that we work with.
    And so, to answer your question, that is all going very 
well, and we actually every year have had enough revenue to 
support our expenses. And last year was a great year for us. It 
was the best year we have ever had. We were 24 percent up over 
what we had been the previous year.
    And so we are obviously buying things to sell in our gift 
shops that people want, and we are offering things at a price 
point that is affordable, and folks are taking a memento home 
with them.
    Mr. Brady. Thank you.
    You talked about your successes. How about your biggest 
challenges? And how can we help on this Committee?
    Ms. Plemmons. Well, our biggest challenge has been our 
budget and how we have been flat for several years. And serving 
more and more people takes more and more staff. And so we have 
been seeing an increase in visitors, but a decrease in the 
number of staff as we have tried to meet our budgetary 
guidelines.
    So recently, in fiscal year 2018, we did receive some small 
increase in our salary dollars, which we very much appreciate, 
to be able to fully staff our team so that we can respond to 
all of those visitor needs.
    Most of those salary dollars went to our education 
department, and we have developed all sorts of wonderful 
programs. I saw a preview yesterday of some of our cart 
programs, which we take the carts around to the different areas 
in Exhibition Hall and Emancipation Hall, and we engage our 
visitors and talk to them more in depth about different topics. 
And having the salary dollars to fund our educators really 
enables us to make a big difference in that experience that the 
visitor is having.
    We are aging, and so our equipment and our facility is in 
need of change and repair. And so those are just ongoing 
expenses and maintenance that you would expect to have in any 
facility.
    One thing that we have on the horizon that we are very 
excited about is our Exhibition Hall and redesigning that area. 
It was intended to be around for about 10 years before it 
needed a refresh, and so we have been excitedly preparing for 
what is next. And it is going to be an environment that is even 
more welcoming and more educational and engaging than what we 
have right now.
    Mr. Brady. You know, that is an amazing building, and every 
time I go there I get lost. And as I am walking around, I 
figure there is something in me, I feel a little stupid, which 
is easy for me at times. But I look around, I see my 
colleagues, and I find out they are lost, too.
    But my point is, your staff is extremely, extremely 
helpful. They probably whisper, ``Here comes this guy again, 
don't know where he is going.'' But every time they are always 
helping and they are extremely helpful, walk me where I have to 
go from time to time and sometimes walk me back out to get back 
on the House floor.
    So that is a testament to your leadership, and I appreciate 
it and I thank you. Thanks for being here. Thank you for your 
testimony.
    The Chairman. Thank you, Mr. Brady.
    The Chair will now recognize the Vice Chair of the 
Committee, Mr. Davis, for 5 minutes for questions.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman and Mr. Brady. You can tell he is 
on his way out. He is brutally honest that he still gets lost 
at the CVC.
    We are going to miss you, buddy. You are a good man and 
thank you.
    The Chairman. And let the record note he did not say he was 
going to miss the Chairman. But that is okay.
    Mr. Davis. I will not correct the record.
    Gregg knows that he will be dearly missed. This Committee 
is going to have a big loss with both of them going away. A lot 
of experience and a lot of class. And I think that is something 
that all of us, in a bipartisan way, throughout our Conference 
and throughout the House, we really agree. So thank you both.
    Now, can I get a couple extra minutes to question the 
witness?
    The Chairman. You have 30 seconds.
    Mr. Davis. You know, I was a staffer when they started 
building the CVC. So I can remember all the discussion in all 
the Hill newspapers, and also discussions about how long it may 
have taken, how much it was going to cost. But in the end, look 
at what is there.
    And I remember specifically that there was a lot of concern 
for Members of Congress at the time about how do we utilize 
this space not just to establish a focal point for tours and 
tourists coming in, but how can we utilize it for Members of 
Congress and our teams to have meetings. And I know one of the 
additions of that scope was to increase those opportunities.
    Along these same lines, can you tell me, the auditorium and 
the atrium, I already know they are wonderful places for films 
and events for Congress to utilize. And I really appreciate 
being able to utilize some of your meeting spaces for 
constituent meetings.
    And also it is great to be able to get down there to do 
some things with our, you know, be it closed top secret 
meetings, briefings that we as Members of Congress get. I 
always enjoy having an electrical outlet there to charge my 
phone, while I can't take it into those classified briefings. 
It always amazes me, it doesn't matter if I took it in or not, 
I know what is happening in the briefings when I get out, 
because somebody else is tweeting it out.
    But because we appreciate your spaces so much, can you tell 
me how often the auditorium, the atrium, and other spaces are 
used for films and other events? And can you tell me how often 
they are utilized by the House and the Senate?
    Ms. Plemmons. I can. Thank you for bringing those up. We 
are very proud of those spaces. They are updated and full of 
amenities to make sure that whatever meetings are held there go 
off without a hitch.
    We have about 800 events a year in those spaces, and this 
would be the Congressional Auditorium and the two Congressional 
Meeting Rooms. And the atrium is sort of right there in front 
of the auditorium.
    Mr. Davis. Right.
    Ms. Plemmons. We use the auditorium about 50 percent of the 
time. So, please, book more experiences in the auditorium. We 
have that available 6 days a week. We also offer catering for 
that particular area. So if you had an event in the atrium, you 
could have catering along with your meeting in the 
Congressional Auditorium.
    Mr. Davis. So the utilization rate of the auditorium is 
about 50 percent?
    Ms. Plemmons. In the auditorium, yes.
    Mr. Davis. And the atrium, what would you estimate?
    Ms. Plemmons. It is about 50 percent.
    Mr. Davis. Fifty percent. And the same with Emancipation 
Hall?
    Ms. Plemmons. Uh-huh.
    Mr. Davis. Okay.
    Ms. Plemmons. Now, Emancipation Hall is a little bit 
different. We utilize that for our bigger events, such as Gold 
Medal ceremonies and that sort of thing. And we use that about 
two to three times a year, on average, for those big events.
    Mr. Davis. But you have to kind of keep all the tourists 
out while you are doing those events.
    Ms. Plemmons. Yes.
    Mr. Davis. Okay.
    Ms. Plemmons. So we have massaged that over the years to 
try to give as much access as possible. And depending on the 
time of day that the event is occurring, we can sometimes bring 
people in that morning while we are setting up and still give 
them a tour and the full experience. Sometimes we do have to 
cancel tours when we are having an event in Exhibition Hall.
    Mr. Davis. How many times a year, how many special events 
did you say with Emancipation Hall a year?
    Ms. Plemmons. Emancipation Hall, we have two to three a 
year.
    Mr. Davis. Two or three a year.
    Ms. Plemmons. In 2015, we had eight, because we had the 
restoration going on in the rotunda.
    Mr. Davis. So only about two or three times a year you have 
the disruptions with the tours. And there are other ways for 
us, as Members of Congress, to be able to take people on tours, 
just not going through the CVC and Emancipation Hall, right?
    Ms. Plemmons. And we do facilitate that through the 
tunnels, where we ticket folks there and help them find their 
way to the Capitol to go into the rotunda and Statuary Hall and 
that sort of thing.
    Mr. Davis. Did you help Mr. Brady find his way?
    Ms. Plemmons. Absolutely. We showed him to the gift shop.
    Mr. Davis. Thank you very, very much, Ms. Plemmons.
    And thank you again, Bob and Gregg. You have been great to 
serve under.
    I yield back.
    The Chairman. Thank you so much, Mr. Davis. The gentleman 
yields back.
    The Chair will now recognize the gentleman from Maryland, 
Mr. Raskin, for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you so much. And I am not 
going to join the chorus singing your praises and that of Mr. 
Brady, because we still have another, what, 7 months to go. So 
I don't want any kind of premature encomiums for you guys.
    Thank you so much for your testimony.
    So 50 percent usage rate, is that right, for the atrium and 
for the auditorium? And what percentage is it on the weeks and 
during the weekends, would you say?
    Ms. Plemmons. It is almost all Tuesday through Thursday is 
our big--when folks are in session.
    Mr. Raskin. So if you add up the whole week, it is actually 
less than 50 percent if you count----
    Ms. Plemmons. We were counting Monday through Friday as 
availability.
    Mr. Raskin. Got you.
    Ms. Plemmons. And then, of that, we use it about 50 percent 
of the time.
    Mr. Raskin. I am interested in the weekend just because I 
am a local Member. My district touches D.C. And I am just 
curious, what are the rules about use of the space during the 
weekend? Is it possible for groups to obtain----
    Ms. Plemmons. It is available on Saturday. We are open on 
Saturdays at the CVC. We are closed on Sundays. And so we 
typically do not host events on Sundays unless it is a 
congressional directive, and we are happy to do that. We have a 
ceremony coming up in June with King Kamehameha that is on a 
Sunday.
    Mr. Raskin. But for Saturdays, ordinarily it is available 
by way of the usual reservation process through Members and so 
on?
    Ms. Plemmons. Right.
    Mr. Raskin. Great.
    So do you have a visitor feedback process that you are 
using to analyze the use of the space and the facilities?
    Ms. Plemmons. We do have visitor feedback systems in a 
number of different areas. Our visitor surveys are primarily 
done for folks that are on tour or visiting Exhibition Hall or 
something like that.
    We do ask our participants that utilize the space in the 
Congressional Auditorium and the Congressional Meeting Rooms 
for their feedback, and ask them to rate our service and how we 
are doing and what we can do to be better service providers.
    Mr. Raskin. Can you describe the current ticketing system 
and how that is working?
    Ms. Plemmons. I can. We do have a reservation system, as I 
mentioned earlier. And so ideally, a person would go online and 
book their reservation in advance. And then they would come a 
little ahead of time on the day of their reservation and come 
through the screening process and then go to the information 
desk and pick up their ticket. And then they get in line for 
the theater, and then a guide or a staffer will take them on a 
tour of the Capitol.
    The ticketing process itself, once that reservation is 
made, once we have booked up those reservations for a day, then 
we tell folks, just come on in and we are going to accommodate 
you if we possibly can.
    And so that is where our inventory management comes in, 
where we are constantly watching to see how things are flowing. 
And if we have someone that does not show up for their 
reservation, then we get those tickets to the people who are 
standing there. And we do that in order of how long they have 
been waiting.
    Mr. Raskin. Do you know what the typical wait time is for 
someone who just shows up like that?
    Ms. Plemmons. It really depends on the day. The 2 weeks 
around Easter are traditionally our incredibly busy time.
    Mr. Raskin. We have noticed that.
    Ms. Plemmons. And we did have one day where waits were up 
to 2 hours this past Easter, but that is not the norm. 
Normally, it would be no more than 20 minutes or so during our 
busy season. Six months out of the year, there is no wait at 
all.
    Mr. Raskin. Great. All right. Well, thank you so much for 
your hard work, and my constituents certainly love it. So you 
have got some happy customers in the Eighth Congressional 
District of Maryland.
    I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    I do not have to wait for the next few months to offer my 
accolades to your character, integrity. And part of your legacy 
here will be the honor with which you have handled yourselves, 
and I think that is across the aisle. So thank you for your 
service.
    Ms. Plemmons, you mentioned earlier that because of the age 
there were some things that needed change and repair, which 
made me think those are some things that I think Vice Chair 
Rodney Davis can relate to at his growing age and about needing 
some changes and repair, but that is a different story. As our 
catcher, we will talk about that some other time.
    Ms. Plemmons, I believe Exhibition Hall is a tremendous 
asset to the Capitol Visitor Center. It is arguably the only 
museum space in our Nation dedicated to American political 
history, of which Congress is the epicenter of course.
    Can you explain for us the key features that contribute to 
the functioning of Exhibition Hall? For example, how often does 
the temporary exhibit change? What type of programming have you 
historically done in the Exhibition Hall? And have you changed 
or expanded the programming in recent years? Could you take 
just a minute and address those?
    Ms. Plemmons. Sure.
    Thank you for asking about Exhibition Hall. It is a great 
space, and it is very interesting and engaging. It is a little 
dark, and we need to correct that with our redesign to be more 
welcoming.
    But it does offer a number of artifacts, interactives. 
There are films, touchable models. We are telling the story of 
Congress. It is, as you mentioned, the only exhibition in the 
world that tells the story of the United States Congress and 
the Capitol.
    And we also have two theaters, one is on the House side and 
one is on the Senate side, and the areas are made to look 
similar to the Chambers. And we show a film that explains how 
Congress works, how the House works and how the Senate works.
    We also have a rotating exhibit, and that does occur every 
6 months. So a tremendous investment in that. We have a working 
group, a content working group that includes the House and 
Senate curators and historians, folks from the Archives and the 
Library of Congress. They all work together to come up with a 
quality exhibit that we refresh every 6 months.
    Mr. Walker. Sure. I think you referenced kind of the 
redesign of Exhibition Hall in your comments. What was the 
purpose of the necessity of those needs? Or, in your opinion, 
why did you think that was necessary? And can you also address 
where you are in the process?
    Ms. Plemmons. Sure. We had always known that the intent was 
to refresh the Hall after 10 years. And so as we started to 
approach our 10-year anniversary, we started to plan. And part 
of that planning included surveying our visitors to find out 
what they were looking for in their experience.
    And so we wanted to change that environment to be more 
welcoming and inviting, the physical space, to make it 
something that would draw folks in; and then also to respond to 
the needs of our visitors and help them understand the impact 
that Congress has on them every day, and also what their role 
is in the democratic process.
    So that is our focus.
    Mr. Walker. Thank you. Thanks for articulating that.
    A little bit of a longer question, to preface it, but I 
want to get your response on this. The Capitol Visitor Center 
currently features our national motto, ``In God We Trust,'' 
engraved at its entrance; the Pledge of Allegiance, including 
the words ``One Nation under God,'' that is engraved at the 
entrance of the Congressional Auditorium. ``In God We Trust'' 
is seen in your mini-House Chamber replica, as it is on our 
House floor.
    As part of the redesign, since we are talking on that, do 
you anticipate any of these important stories or features of 
our congressional history and political life being altered, 
changed, or even removed?
    Ms. Plemmons. We intend to keep all of those as part of 
telling the story of Congress and our religious heritage. And I 
will say that--put a caveat in there that some of the items are 
on loan, such as the two Bibles that we have. They are very 
important and part of telling the story of that particular 
time.
    However, we do abide by the guidelines of our lenders. And 
so if there are objects that might need to have a rest, not be 
on display for a while to preserve them--and, you know, Bibles 
are paper--and so there could be a scenario where the lenders 
say: We want to take these off of display.
    But our intent is to include those and everything else that 
you mentioned, and to continue to weave those stories in, as 
appropriate, as we tell the story of the history of Congress 
and the Capitol.
    Mr. Walker. Thank you, Ms. Plemmons.
    I yield back.
    The Chairman. The gentleman yields back.
    We want to thank you for your time today and for what you 
do to make the Capitol the special place that it is.
    There is nothing more meaningful to us, as Members, than 
seeing first-time visitors to the United States Capitol and to 
see that interest that they have, whether it is an adult or a 
group of young people from a school. It is something unique and 
special, and it is the center of our democracy. And so I thank 
you for that work that you are doing.
    And as this goes through and the days go by, and you have 
issues or needs or things that you are looking at, or redesigns 
or reengineering, don't assume that we know about those needs. 
And please know that we are here to work together on this to 
continue to have it as the most incredible place to visit in 
Washington, D.C.
    And we thank you for your time today.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witness, which we will forward if any are forthcoming, and ask 
you to answer as promptly as you can so that those answers can 
be made a part of the record.
    [The information follows:]
    The Chairman. Without objection, this hearing is adjourned.
    [Whereupon, at 11:40 a.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
</pre></body></html>
